Memorandum from the Office of the Inspector General



August 31, 2007

Kim R. Patterson, WT 4A-K

FINAL REPORT – INSPECTION 2006-522I – REVIEW OF TVA TRAVEL
REIMBURSEMENTS



Attached is the subject final report for your review and action. Your informal comments to
the draft report have been incorporated. Please advise us of your planned actions in
response to our findings within 60 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Richard C. Underwood, Project Manager, at
(423) 751-3108 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 751-7821. We appreciate the courtesy and cooperation received from your staff
during this review.




Ben R. Wagner
Deputy Inspector General
ET 3C-K

GCJ:SDB
Attachment
cc (Attachment):
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     Elizabeth M. Nickle, WT 8D-K
     Emily J. Reynolds, OCP 1L-NST
     OIG File No. 2006-522I
                       Tennessee Valley Authority
                       Office of the Inspector General


Inspection Report



REVIEW OF
TVA TRAVEL
REIMBURSEMENTS




Project Manager                              2006-522I
Richard C. Underwood                    August 31, 2007
Office of the Inspector General                                         Inspection Report




TABLE OF CONTENTS

EXECUTIVE SUMMARY......................................................... i

BACKGROUND...................................................................... 1

OBJECTIVE, SCOPE, AND METHODOLOGY ...................... 3

FINDINGS .............................................................................. 4

RECOMMENDATIONS ........................................................ 11


APPENDICES

A. POWER SERVICE SHOPS' JUDGMENTAL SAMPLE AND
   JUSTIFICATION

B. ELECTRIC SYSTEM PROJECTS' JUDGMENTAL SAMPLE

C. INSPECTIONS SERVICES’ JUDGMENTAL SAMPLE AND
   JUSTIFICATION

D. WATTS BAR NUCLEAR SITE OUTLIER SAMPLE




Inspection 2006-522I
Office of the Inspector General                                              Inspection Report



EXECUTIVE SUMMARY
Tennessee Valley Authority (TVA) employees are reimbursed for travel
and travel-related expenses via TVA’s Employee Reimbursement
System (ERS).i Based on ERS data beginning with fiscal year (FY)
1999, travel reimbursements have exceeded $15 million each year with
FY 2002 having the highest amount of travel reimbursements--about
$20.4 million. Most recently, total TVA employee travel reimbursements
were over $17.7 million in FY 2006. TVA travel reimbursements are
governed by (1) TVA policies and procedures and (2) federal travel
regulations.

We performed an inspection to assess the reasonableness of travel
reimbursements where employees were (1) in travel status for an
extended period of time and/or (2) received significant reimbursements.
The scope of the inspection included all reimbursements made to
employees during FYs 1999 through 2006. We found many TVA
employees who received significant travel reimbursements and traveled
to the same location for extended periods in multiple years. Therefore,
we identified the top 100 travelers based on the number of days spent in
travel status in a single location during FYs 1999 through 2006. In
summary, we found for the eight years of travel reimbursements
reviewed, there were 434 different TVA employees that were identified
as a top 100 traveler during any of these FYs. During this period, the
434 individuals received reimbursements totaling over $9.6 million.
Further analysis of the travel days spent in a single location for the
434 TVA employees noted:ii

•   For FYs 1999 through 2006, the yearly average number of days
    spent in travel status in a single location was 197 or 82 percent of
    the available working days.
•   The lowest number of days a traveler spent in one FY in a single
    location was 128 or 53 percent of the available working days.




i
   Throughout this report, "travel reimbursements" refers to all reimbursements made through
   ERS to TVA employees. Our analysis of ERS data noted that only 3.8 percent of the total
   reimbursements could not be assigned specifically to travel-related expenses based on the
   expense type code. Since these amounts were immaterial to the whole, they were not
   omitted from our analysis and are included in the amounts identified as "travel
   reimbursements" in this report.
ii
   We used 240 as the available working days. This was calculated by adjusting 260, the
   normal weekdays in a year, by ten federal holidays and an average of ten annual leave days
   a year.
Inspection 2006-522I                                                                     Page i
Office of the Inspector General                               Inspection Report


There were 105 instances of an employee spending 260 days or more
in travel status in the same location during a FY, including one
employee who spent all 366 days of FY 2000 in travel status in the
same location.

We selected a judgmental sample from the 434 travelers and requested
management to provide explanations/justifications for the extensive
travel. While the organizations provided explanations, no documentation
was provided to support that consideration was given to changing any
official duty stations. Accounting Procedure 15 states, “Supervisors
should give consideration to changing an employee’s official station in
lieu of paying continuous travel allowances if the employee is expected
to remain at a temporary station for an extended period of time.” Based
on the documentation provided by management, the extended periods in
travel status for most of the individuals in our sample appeared to be
justified. However, the lack of specific justification for extended travel for
several individuals over several years to one location raises questions
about whether there may be cost savings opportunities.

We recommend that the Senior Manager of Disbursement Services:
(1) reemphasize the importance of compliance with TVA travel policies
and Accounting Procedure 15; specifically, the requirement for
documentation of consideration and justification for not changing the
duty station of employees in extended travel status; (2) reemphasize
management’s responsibility to adjust the maximum actual expense
reimbursement downward for travel assignments involving extended
periods at temporary duty stations where travelers are able to secure
lodging and meals at lower costs; and (3) require management to
ensure that employees reimbursed for extended periods of travel are
actually maintaining a residence at their official duty station and in fact
incur extra costs due to travel.




Inspection 2006-522I                                                    Page ii
Office of the Inspector General                                                                            Inspection Report


BACKGROUND
Tennessee Valley Authority (TVA) employees are reimbursed for travel
and travel-related expenses via TVA’s Employee Reimbursement
System (ERS).1 Based on ERS data beginning with fiscal year (FY)
1999, travel reimbursements have exceeded $15 million each year with
FY 2002 having the highest amount of travel reimbursements--about
$20.4 million (see Table 1). Most recently, total TVA employee travel
reimbursements were over $17.7 million in FY 2006. TVA travel
reimbursements are governed by (1) TVA policies and procedures and
(2) Internal Revenue Service (IRS) guidelines.


                         Total Travel Reimbursements to TVA Employees by Fiscal Year

                   Millions


                        20


                        15


                        10


                          5


                          0
                                1999       2000       2001        2002       2003       2004        2005       2006

          Total Reimbursements 15,133,857 15,142,582 17,701,266 20,392,222 20,192,752 18,484,565 19,088,569 17,712,556

                                                                   Fiscal Year


                                                                                                                         Table 1

TVA POLICIES AND PROCEDURES
TVA Business Practice 11 (1) describes what constitutes TVA business
travel, (2) describes key processes related to travel arrangements and
reimbursements, and (3) defines the roles of employees, Procurement,

1
  Throughout this report, "travel reimbursements" refers to all reimbursements made through
  ERS to TVA employees. Our analysis of ERS data noted that only 3.8 percent of the total
  reimbursements could not be assigned specifically to travel-related expenses based on the
  expense type code. Since these amounts were immaterial to the whole, they were not
  omitted from our analysis and are included in the amounts identified as "travel
  reimbursements" in this report.
Inspection 2006-522I                                                                    Page 1
Office of the Inspector General                                Inspection Report


Employee Accounting, and supervisors. That Business Practice states,
“TVA’s guidelines regarding reimbursable travel expenses are covered
in the TVA Accounting Procedure 15, published by Employee
Accounting.” However, travel reimbursements applicable to our review
period were also made under two Chief Operating Officer (COO)
policies:

•    The Flat Rate Policy which was eliminated in FY 2006.
•    The COO Travel Guidelines for Actual Expenses.

ACCOUNTING PROCEDURE 15
Accounting Procedure 15 not only establishes guidelines on permissible
expenses, but defines what constitutes official travel status and what
must occur if extended periods of travel are incurred. Key provisions of
Accounting Procedure 15 state that:

•   Effective January 1, 1993, any reimbursements for travel expenses
    incurred in connection with employment away from the official station
    which is expected to last, or in fact lasts, one year or more are
    taxable to the employee and subject to income and FICA tax
    withholdings. Employee Accounting should be notified any time you
    have or expect to have an employee in this situation.
•   Supervisors should give consideration to changing an employee’s
    official station in lieu of paying continuous travel allowances if the
    employee is expected to remain at a temporary station for an
    extended period of time.
•   For travel assignments involving extended periods at temporary duty
    stations where travelers are able to secure lodging and meals at
    lower costs, the authorized maximum actual expense
    reimbursement should be adjusted downward.

COO TRAVEL POLICIES
COO Travel Guidelines for Actual Expenses require COO supervisors
to:

•   Give consideration to changing an employee’s official station in lieu
    of keeping the employee in continuous travel status if the employee
    is expected to remain at a temporary duty location for an extended
    period of time (i.e., 12 months or longer). Assignments of 12 months
    or longer require the approval of the appropriate senior vice
    president, vice president, or general manager.




Inspection 2006-522I                                                     Page 2
Office of the Inspector General                            Inspection Report


•   Document that a determination was made concerning
    transferring/not transferring an employee to the temporary duty
    location for long-term assignments.


OBJECTIVES, SCOPE, AND METHODOLOGY
The objective of our review was to assess the reasonableness of travel
reimbursements where employees were (1) in travel status for an
extended period of time and/or (2) received significant reimbursements.
The scope of the inspection included all reimbursements made to
employees during FYs 1999 through 2006. To achieve our objective, we:

•   Reviewed TVA policies and procedures and IRS guidelines related
    to travel reimbursements to determine key processes, requirements,
    and guidelines.
•   Performed an analysis of travel reimbursements made to TVA
    employees during our review period by:
    – Summarizing data by employee and FY, as well as by
      organizational units.
    – Identifying the top 100 employees based on days spent in travel
      status in a single location during any FY.
    – Using Audit Control Language to identify any potential trends in
      travel reimbursements.
•   Obtained and reviewed explanations for some travel activities.
    Specifically, we:
    – Selected a judgmental sample of employees identified as top
      100 travelers based on extensive travel in multiple years to the
      same location.
    – The travel information for the selected employees was provided
      to the applicable organizations with a request to provide
      (1) specific reasons/justifications/work activities supporting the
      travel, (2) documentation indicating that relocating the employee
      was considered, and/or (3) documentation indicating that similar
      analyses had been conducted.
•   Interviewed TVA management and reviewed Choice Point and other
    data to assess the reasonableness of some selected travel
    reimbursements.

This inspection was conducted in accordance with the PCIE “Quality
Standards for Inspections.”


Inspection 2006-522I                                                  Page 3
Office of the Inspector General                                            Inspection Report


FINDINGS
We assessed the reasonableness of travel reimbursements where
employees were (1) in travel status for an extended period of time
and/or (2) received significant reimbursements. We found many TVA
employees who received significant travel reimbursements and traveled
extensively to the same location in multiple years.

While TVA organizations provided explanations for the extensive travel
for selected employees, no documentation was provided that showed
consideration was given to relocating employees remaining at a
temporary duty station for an extended period of time. This
consideration is required by both Accounting Procedure 15 and COO
Travel Policies. Documentation of this consideration is required by the
COO travel policies. Information obtained in our review indicates that
potential cost savings may be achieved if such consideration was given.

EXTENSIVE TRAVEL TO THE SAME LOCATION IN
MULTIPLE YEARS

We reviewed travel reimbursements made to TVA employees during
FYs 1999 through 2006 to identify travel trends and areas of cost
concentration. Our analysis found that many employees with significant
travel reimbursements traveled extensively to the same location in
multiple years. Therefore, we identified the top 100 travelers based on
the number of days spent in travel status in a single location during FYs
1999 through 2006. In summary, we found for the eight years of travel
reimbursements reviewed, there were 434 different TVA employees that
were identified as a top 100 traveler during any of these FYs. During
this period, the 434 individuals received reimbursements totaling over
$9.6 million. Further analysis of the travel days spent in a single
location for the 434 TVA employees noted:2

•   For FYs 1999 through 2006, the yearly average number of days
    spent in travel status in a single location was 197 or 82 percent of
    the available working days.
•   The lowest number of days a traveler spent in one FY in a single
    location was 128 or 53 percent of the available working days.
•   There were 105 instances of an employee spending 260 days or
    more in travel status in the same location during a FY.


2
  We used 240 as the available working days. This was calculated by adjusting 260, the
  normal weekdays in a year, by ten federal holidays and an average of ten annual leave days
  a year.
Inspection 2006-522I                                                                   Page 4
Office of the Inspector General                                         Inspection Report


•   An employee spent all 366 days of FY 2000 in travel status in the
    same location. The same employee spent 106 days in travel status
    at this location in FY 1999 and 176 days in FY 2001.

ORGANIZATIONAL JUSTIFICATIONS
We found 316 or 73 percent of the 434 employees identified as top
100 travelers were assigned to eight different organizations within TVA
at the time of our analysis. These eight organizations were:

–   Research & Technology Applications (R&TA) – 27 percent
–   Power Service Shops (PSS) – 19 percent
–   River Operations (RO) – 8 percent
–   Browns Ferry Nuclear Plant Site (BFN) – 5 percent
–   Heavy Equipment Division (HED) – 5 percent
–   Electric System Projects (ESP) – 4 percent
–   Inspection Services – 3 percent
–   Watts Bar Nuclear Plant Site (WBN) – 2 percent

We selected a judgmental sample of the employees identified as top
100 travelers from the above listed organizations and provided
organizational management their travel information, including number of
days in travel status; travel location; and total reimbursements. For
these employees, we requested the specific reasons/justifications/work
activities resulting in the employee spending an extensive amount of
time in one location during the FYs. We also requested any
documentation indicating that (1) relocating the employee was
considered and/or (2) TVA management had conducted analyses of
extended periods of travel in the same city.

The selected TVA organizations provided explanations for the travel,
but no documentation was provided that showed (1) relocations were
considered and (2) analyses of extended travel had been conducted.

R&TA
We contacted the Senior Manager, Resource Management (RM),
R&TA,3 to discuss the large number of individuals noted spending the
majority of their time in travel status in the same city over several years.
The majority of the individuals noted in R&TA had spent several years
in either Terre Haute, Indiana, or in Pine Bluff or Little Rock, Arkansas.




3
  R&TA is a TVA group within River System Operations and Environment.
Inspection 2006-522I                                                              Page 5
Office of the Inspector General                                       Inspection Report


We were told:

•   Individuals had traveled as participants in RM’s external contractual
    services program.4
•   Travel expenses were being reimbursed to TVA by the third-party
    customer.
•   The employees had not been relocated to the travel duty station at
    the request of the customers, based on their internal cost systems.

In addition, R&TA management informed us that after six months of
travel, information regarding employee travel under the program is
forwarded to Employee Accounting. This is to ensure that travel
reimbursements will be accounted for and properly included in W2
information reported to IRS.

Based on the explanation provided by R&TA management, these
reimbursements appear to be appropriate.

PSS
We provided employee travel data to PSS management, as shown in
Appendix A. PSS management did not provide explanations for
extended travel in the same location on a case-by-case basis, but
provided an overall justification for PSS travel. (PSS’s complete
explanation is provided in Appendix A.) PSS’s explanation did state
that, “The PSS is looking at each of the employees on the extended list
to ensure no changes are needed to the employees' official duty station
assignment.”

We believe this review by the PSS may identify some cost savings
opportunities. For example, we found:5

•   An Elevator Fixed Crane Inspector received $158,140 or
    approximately $19,767 per year in travel-related reimbursements
    over the last eight years. Virtually, all of the travel reimbursements
    were for the Chattanooga/Soddy Daisy, Tennessee, area.
•   A PSS employee with significant days spent in travel status in
    Chattanooga, Tennessee, listed a post office box in Alabama as
    his/her home address (i.e., per information in TVA’s People
    Warehouse). However, research indicates that this individual has
    maintained several residences in Chattanooga, Tennessee, since
    September 2004, even though his official station is still listed as

4
  Management advised RM provides RSO&E services/technologies to TVA and external
  customers.
5
  The examples cited for the PSS were based on ERS data.
Inspection 2006-522I                                                             Page 6
Office of the Inspector General                              Inspection Report


    Muscle Shoals, Alabama, in People Warehouse. From FY 2004
    through FY 2006, this employee was reimbursed $47,194 for
    601 days of travel to Chattanooga, Tennessee. The majority of
    this amount was broken down in the following categories:

    –   Meals ($6,481)
    –   Flat Rate Travel ($27,436)
    –   Lodging ($8,440)
    –   Official Telephone Calls ($2,200)

•   A PSS employee with an official duty station of Clinton, Tennessee,
    was reimbursed $52,958 for traveling to Kingston, Tennessee,
    during FY 2004 through FY 2006. According to People Warehouse,
    his/her mailing address and TVA phone number are to the PSS in
    Muscle Shoals, Alabama. It is approximately 50 miles from the
    employee’s home address in Knoxville, Tennessee, to the Kingston
    Fossil Plant and approximately 15 miles from the employee’s home
    address to Bull Run Fossil Plant. In essence, TVA paid this
    employee $53,000 or $81.35 a day to travel to Kingston, Tennessee.
    Further analysis of the employee’s reimbursements found:

    – The employee was reimbursed $38,758 for flat rate travel to
      Kingston, Tennessee, from FY 2004 through FY 2006.
    – The employee was reimbursed $15,346 for mileage to Kingston,
      Tennessee, from FY 2001 through FY 2006. Of the $15,346,
      $11,650 occurred between FY 2004 and FY 2006.

Based on the documentation provided by management, the extended
periods in travel status for many of the individuals in our sample
appeared to be justified. However, the lack of specific justification for
extended travel for several individuals over several years to one
location raises questions about whether there may be cost savings
opportunities.

HED
When requesting information on HED employees identified as top
100 travelers, they were included in the list with PSS employees at the
request of Fossil Power Group management. The same comments
would therefore apply.

RO
RO only had a few individuals that appeared in multiple years as a top
100 traveler prior to FY 2004. However, several individuals appeared in
the top 100 travelers in both FY 2005 and FY 2006. RO management
explained that all of the employees cited, with one exception, were

Inspection 2006-522I                                                   Page 7
Office of the Inspector General                              Inspection Report


Hydro Tech II employees on a 14-month training assignment at either
Watts Bar Dam or Wilson Dam. RO management told us that the other
individual had been working on the work management processes in
Chattanooga, Tennessee, and while there is no written justification for
his consistent travel, they have now relocated him to Chattanooga,
Tennessee, permanently.

Based on the explanation provided by RO management, these
reimbursements appear to be appropriate.

BFN
We asked BFN management about employees that were reimbursed for
significant time in travel status from FY 2001 through FY 2004 in Terre
Haute, Indiana. Management informed us that at the time of the travel
these individuals were not working on TVA Nuclear projects, but were
working as participants in RM’s external contractual services program.
R&TA management confirmed they were working under the program.

Based on the explanation provided by BFN management, these
reimbursements appear to be appropriate.

ESP
ESP was found to have (1) a few employees spending the majority of
their travel time over several years in the same location and (2) other
employees receiving reimbursements for travel to Chattanooga which
was listed as their official duty station. We provided travel information
to Power System Operations’ (PSO) management, as shown in
Appendix B. PSO provided the following response:

      The employees listed on the attached list are all part of
      Electric System Projects’ construction organizations.
      Their work requires a large amount of travel as our
      construction projects are widely dispersed throughout the
      Valley. Projects vary in length from a few weeks to a
      year or more.

      Because the work locations of these employees change
      so frequently, it is almost always more cost-effective to
      pay travel expenses rather than permanently relocate the
      employees. Administratively, most employees are
      assigned to our home office in Chattanooga (see the
      attached Labor Agreement). They are paid travel only if
      their work location is at least 40 miles from their
      residence and they obtain temporary lodging.


Inspection 2006-522I                                                   Page 8
Office of the Inspector General                              Inspection Report


      In the future, when travel expenses are reimbursed for
      work in Chattanooga, we will document approval for
      paying travel since Chattanooga is the administratively
      assigned home station.

Based on management’s comments, these reimbursements appear to
be appropriate.

INSPECTION SERVICES
Seven of the 12 individuals in Inspection Services identified as being
top 100 travelers during our review period spent the majority of their
time during consecutive years in travel status in a single location. We
provided Inspection Services travel information, as shown in
Appendix C. Inspections Services did not provide explanations for
extended travel in the same location on a case-by-case basis, but
provided an overall justification for Inspection Services’ work activities
(Inspection Services’ complete explanation is provided in Appendix C).
In summary, Inspection Services said their personnel are subject to
assignment anywhere in the Valley and “individuals are chosen for a
particular job that will serve in the best interest of TVA.”

Management stated that Inspection Services is a centrally located
group and indeed all of the individuals on whom we performed further
review showed Soddy Daisy, Tennessee, as their official duty station.
However, we selected six Inspection Services personnel for additional
analysis and found various home addresses reported for the individuals
that were not in the Soddy Daisy, Tennessee, area. Specifically:

• A NDE Specialist living in Viola, Tennessee, received
  reimbursements for travel to Huntsville, Alabama, an average of
  240 days per year totaling $45,207 over a seven-year period. Based
  on a review of information from Google maps internet site, the
  distance from Viola, Tennessee, to Soddy Daisy, Tennessee, and
  the distance from Viola, Tennessee, to Huntsville, Alabama, differ by
  approximately ten miles.
• A Technician appears to have lived in Dayton, Tennessee, since
  May 2004 but also appears to have resided in a trailer park in
  Tanner, Alabama, from March 2003 through 2004, as well as an
  apartment in Athens from August of 2003 through January 2005.
  This employee received travel reimbursements for 245 days in travel
  status in Athens, Alabama, in FY 2003 and continued to receive
  these reimbursements through FY 2006.




Inspection 2006-522I                                                   Page 9
Office of the Inspector General                              Inspection Report


• A NDE Specialist appears to currently reside in Dayton, Tennessee,
  but also appears to have resided in Decatur, Alabama, from May
  2003 through June 2004; October 2004 through May 2006; and July
  2006 through January 2007 when our information was collected.
  This employee received travel reimbursements averaging $25,855
  per FY while in travel status in Decatur, Alabama, from FY 2004
  through FY 2006.
• A Technician, QC, has an Athens, Tennessee, address listed as his
  permanent address in People Warehouse. However, his identified
  current address is a post office box in Muscle Shoals, Alabama, and
  his given home phone number appears to be for a cell phone from
  Florence, Alabama. This employee was in the top 100 travelers
  based on the number of days he spent in travel status in Muscle
  Shoals in FY 2003 and FY 2004. He was reimbursed $22,167 and
  $23,169, respectively, for this travel.

The above information indicates that all Inspection Services’ personnel
may not be centrally located, and the lack of specific justification for
extended travel for these individuals over multiple years to one location
raises questions about whether there may be cost savings opportunities
available from relocation of official duty stations or realignment of job
duties.

WBN
We provided WBN management the travel information, as shown in
Appendix D. The explanation provided addressed the selected
employees work activities and concluded that it was more appropriate
for them to travel than relocate. Specifically, management stated:

         The SR INST MECH INSTR and MAINT MECH INSTR/S
         are instructors who had been providing training at
         Sequoyah Nuclear Plant (SQN) because WBN did not
         have the facilities, equipment, mock-ups, etc. needed for
         this particular instruction (Instrument Maintenance and
         Multi-Skill). The MGR, DEV/RTATNAL SR was the
         Project Engineer for the recent Steam Generator
         Replacement Project at WBN. His permanent station is
         at SQN, where he first performed the same task for SQN-
         1. He worked temporarily at WBN to utilize his
         experience on this difficult task. He has now gone back
         to SQN to do the same job on SQN-2. The PM, Nuc
         Assurance was traveling on an 18 month rotational
         assignment at INPO in Atlanta. I believe that it was
         appropriate for each of these individuals to travel rather
         than relocate.

Inspection 2006-522I                                                  Page 10
Office of the Inspector General                             Inspection Report


The explanation provided supports why much of the travel
reimbursements were mileage costs. Specifically:

•   TVA travel reimbursements to a SR INST MECH INSTR totaled
    $23,000 from FY 2001 through FY 2005. All but $16 was for
    mileage reimbursements. Based on information obtained, the
    individual traveled approximately 30 miles further from his home
    than he travels to his home duty station.
•   TVA travel reimbursements to a MAINT MECH INSTR/S totaled
    about $10,000 from FY 2003 through FY 2004. Based on
    information obtained, the individual traveled approximately 40 miles
    further from his home in Loudon, Tennessee, than he travels to his
    home duty station, WBN. From FY 2001 through FY 2005, the
    employee was reimbursed $16,548 for mileage incurred traveling to
    SQN. In these five years, he spent 708 days in travel status, and an
    average of 141 days each of these years in Soddy Daisy,
    Tennessee.
•   A MGR, DEV/RTATNAL SR spent the majority of his time from
    FY 2004 through FY 2006 at WBN in Spring City, Tennessee, and
    was paid approximately $17,000 to travel 48 miles from his home in
    Hixson, Tennessee. The majority of these reimbursements were for
    mileage.

Based on management’s comments, these reimbursements appear to
be appropriate.


RECOMMENDATIONS
We recommend the Senior Manager of Disbursement Services:

•   Reemphasize the importance of compliance with TVA travel policies
    and Accounting Procedure 15; specifically, the requirement to
    document consideration and justification for not changing the duty
    station of employees in extended travel status.
    – Consideration should also be given to requiring organizations to
      conduct regular reviews of travel reimbursements by employee
      and city visited to identify opportunities for cost savings through
      relocations and realignment of job assignments. The costs of
      relocations should be considered in these reviews and according
      to Disbursement Services the average cost is about $50,000 per
      transfer.



Inspection 2006-522I                                                Page 11
Office of the Inspector General                                 Inspection Report


•   Reemphasize management’s responsibility to adjust the maximum
    actual expense reimbursement downward for travel assignments
    involving extended periods at temporary duty stations where
    travelers are able to secure lodging and meals at lower costs.
•   Require management to ensure that employees reimbursed for
    extended periods of travel are actually maintaining a residence at
    their official duty station and in fact incur extra costs due to travel.




Inspection 2006-522I                                                    Page 12
                                            Power Service Shops’ Judgmental Sample

                                                                                                  Fiscal Year
Job Title            CITY            Data                    1999      2000     2001     2002      2003         2004     2005     2006     Grand Total
ELEV-FIX CRN INSPC   CHATTANOOGA     Total Reimbursements    17,8037   11,882   21,902   26,880    13,072                                       91,540
                                     Days in Travel Status      332      335      310      305        149                                        1,431
                     SODDY-DAISY     Total Reimbursements                         972              10,819       20,262   26,488   19,850        66,600
                                     Days in Travel Status                         28                135          251      310      262            823
SUPV, PSS FIELD      KINGSTON        Total Reimbursements              16,137   15,242   12,838                 14,891                          59,108
                                     Days in Travel Status               180      156      144                    173                              653
                     OAK RIDGE       Total Reimbursements                                                                12,810   16,220        29,031
                                     Days in Travel Status                                                                 159      228            387
                     Other TN city   Total Reimbursements      9,342                                                                              9,342
                                     Days in Travel Status      141                                                                                141
                     ROGERSVILLE     Total Reimbursements                                          11,872                                       11,872
                                     Days in Travel Status                                            114                                          114
MACH FMN             PADUCAH         Total Reimbursements     15,143   17,817   19,107                          15,093   20,233   15,859       103,252
                                     Days in Travel Status      169      194      191                             149      188      146          1,037
SUPV, PSS FIELD      MUSCLE SHLS     Total Reimbursements                       11,808             23,943       24,162   27,871   15,460       103,244
                                     Days in Travel Status                        128                 190         185      261      149            913
MACH FMN             STEVENSON       Total Reimbursements                                16,196    17,028       26,094   23,212   16,936        99,465
                                     Days in Travel Status                                 167        173         264      222      206          1,032
MACH                 GALLATIN        Total Reimbursements                                                       17,148   16,009   12,544        45,702
                                     Days in Travel Status                                                        177      159      120            456
                     MEMPHIS         Total Reimbursements                       15,357   14,089    13,888                                       43,334
                                     Days in Travel Status                        126      118        110                                          354
MACH                 KINGSTON        Total Reimbursements                                                                19,771   15,956        35,727
                                     Days in Travel Status                                                                 182      155            337
                     PADUCAH         Total Reimbursements     13,578                                                                            13,578
                                     Days in Travel Status      147                                                                                147
                     STEVENSON       Total Reimbursements                                13,577                 22,453                          36,030




                                                                                                                                                          APPENDIX A
                                                                                                                                                           Page 1 of 3
                                     Days in Travel Status                                 139                    232                              371
STFTR WLDR FMN       MEMPHIS         Total Reimbursements     14,858                                                                            14,858
                                     Days in Travel Status      125                                                                                125
                     PADUCAH         Total Reimbursements              14,184   17,127                          13,604   13,623   11,786        70,324
                                                                                                 Fiscal Year
Job Title            CITY           Data                    1999     2000     2001      2002      2003         2004     2005     2006     Grand Total
                                    Days in Travel Status              149       174                             136      131      119            709
MntSpecHEQ           NASHVILLE      Total Reimbursements                                          15,371       21,811   27,944   15,498        80,624
                                    Days in Travel Status                                            133         188      225      217            763
MACH FMN             PADUCAH        Total Reimbursements    10,641   11,279    16,026                          12,678   17,503   10,332        78,460
                                    Days in Travel Status     123      124       167                             128      171      106            819
STFTR WLDR           DRAKESBORO     Total Reimbursements                                15,246    11,928                                       27,173
                                    Days in Travel Status                                 162        126                                          288
                     KINGSTON       Total Reimbursements                                                       18,504   18,345   12,855        49,705
                                    Days in Travel Status                                                        174      165      147            486
SUPV, PSS FIELD      GALLATIN       Total Reimbursements             12,022    12,385                          13,379   15,697   10,721        64,203
                                    Days in Travel Status              159       163                             181      188      155            846
                     MEMPHIS        Total Reimbursements                                12,374                                                 12,374
                                    Days in Travel Status                                 123                                                     123
SUPV, PSS FIELD      STEVENSON      Total Reimbursements                                30,361    20,724       12,900                          63,985
                                    Days in Travel Status                                 300        208         135                              643
MACH                 NEW JOHNSNVL   Total Reimbursements                                                       16,587   21,250   25,338        63,175
                                    Days in Travel Status                                                        175      213      231            619
MACH                 PADUCAH        Total Reimbursements             15,918   17,2734                                   14,796   12,181        60,169
                                    Days in Travel Status              170       172                                      181      145            668
MACH FMN             KINGSTON       Total Reimbursements                                                       17,896   19,883   15,180        52,958
                                    Days in Travel Status                                                        182      224      245            651
TecPrjCtlF           CHATTANOOGA    Total Reimbursements                                                       14,558   17,510   15,126        47,194
                                    Days in Travel Status                                                        239      183      179            601
MACH                 CHATTANOOGA    Total Reimbursements                                                                15,396   25,217        40,613
                                    Days in Travel Status                                                                 153      298            451
ELEV-FIX CRN INSPC   CHATTANOOGA    Total Reimbursements                                12,292                                                 12,292
                                    Days in Travel Status                                 148                                                     148
                     SODDY-DAISY    Total Reimbursements                                                                15,421                 15,421




                                                                                                                                                        APPENDIX A
                                    Days in Travel Status                                                                 186                     186




                                                                                                                                                         Page 2 of 3
                                                   Power Service Shops’ Justification

“The PSS has reviewed the list of employees that have a significant number of travel days in one location for multiple years. The following items
address this issue.

    1. The PSS supports major maintenance activities such as turbine / generator refurbishments, motors, transformers, bushings, valves,
       pumps, etc. at all fossil, hydro, nuclear, and transmission locations throughout the valley. This necessitates a large group of employees to
       be in extended travel status for the majority of the year. Most employees travel to various locations based upon outage schedules and
       assignments. However, in some cases where repetitive outages occur frequently within a year's time such as Kingston fossil plant or
       Widows Creek fossil plant, an employee may spend the majority of his/her time at that location supporting the assigned work. This
       employee will still be used at other locations in the valley, but the majority of their time may be at one plant location (city). Since most
       employees' official duty station is at Muscle Shoals (PSS), this would result in that employee being in travel status at that plant location.

    2. Some employees, due to unique skill sets and/or specific knowledge of a plant, may be better suited to provide services to that plant when
       possible. In addition, in an effort to strengthen customer/plant relationships, the PSS when possible tries to maintain some
       resemblance of a core group of employees at certain plants that are familiar to the plant team. However, as employees who work
       predominantly at other plant locations retire or move to other positions, the PSS has to move employees from one plant to another to
       provide the needed expertise. For example: A field supervisor who may be predominantly supporting the outages at the Widows Creek
       fossil plant for a few years may have to be reassigned to Johnsonville if his expertise is now needed there due to a retirement or other
       reason. This would require the PSS to pay travel relocation costs each time to relocate the employee.

    3. While on the surface it may appear that some employees should have their official duty station reassigned to a plant location, this would
       cause much friction with employees who would refuse to relocate their home to that location and would request that they be put on travel
       to various plant sites and to not be at one site for multiple times in a single year. The PSS has tried unsuccessfully to do this in the
       past. The PSS submits bids for all work and the plant does not have to award work (outages) to the PSS. If the PSS locates (official duty
       station) employees to certain sites, and then some of the work is awarded to outside vendors (OEMs) then the PSS would be faced with
       relocating the PSS employees to another location and paying relocation costs in some cases.

    4. As attrition of TVA employees increases and more are replaced with contract employees, this will become less of an issue since contract
       craft employees are not normally reimbursed for travel.

    5. In the past the PSS has not specifically looked at each of these employees listed on this report to determine if their official duty station
       needs to be changed; however, the PSS does make changes to employees' official duty station assignments from time to time based upon
       specific business reasons.

    6. The PSS is looking at each of the employees on the extended list to ensure no changes are needed to the employees' official duty station




                                                                                                                                                       APPENDIX A
       assignment.”




                                                                                                                                                        Page 3 of 3
                                                 Electric System Projects’ Judgmental Sample

                                                                                                                     Fiscal Year
                     Home Duty
Jobtitle             Station       CITY VISITED      Data                    1999      2000      2001      2002      2003     2004      2005      2006      Grand Total
Mgr, Contract Cnst   Chattanooga   CHATTANOOGA       Days in Travel Status       186       192       218                                                           596
                                                     Total Reimbursements    $10,723   $11,382   $13,090                                                       $35,195
TRANSMSN CONST FMN   Chattanooga   CHATTANOOGA       Days in Travel Status                                              177       168                 148          493
                                                     Total Reimbursements                                            $4,941    $3,865              $2,593      $11,400
Mgr, Contract Cnst   Chattanooga   CHATTANOOGA       Days in Travel Status       180       189                                                                     369
                                                     Total Reimbursements    $10,030   $13,084                                                                 $23,114
Right of Way Spec    Chattanooga   Other AL in       Days in Travel Status                                     170                                                 170
                                                     Total Reimbursements                                  $11,147                                             $11,147
                                   Other TN city     Days in Travel Status                 180                                                                     180
                                                     Total Reimbursements               $9,533                                                                  $9,533
TRANSMSN CONST FMN   Chattanooga   CHATTANOOGA       Days in Travel Status                                                                  158       182          340
                                                     Total Reimbursements                                                                $3,743    $4,225       $7,968
MGR,SUBSTAT MATLS    Knoxville     CHATTANOOGA       Days in Travel Status                 164       154                                                           318
                                                     Total Reimbursements              $10,768   $10,864                                                       $21,632
BUS SPT REP-MULTI    Chattanooga   SHEFFIELD         Days in Travel Status                 137                 163                                                 300
                                                     Total Reimbursements               $2,453              $3,391                                              $5,844
TRANSMSN CONST FMN   Chattanooga   HUNTSVILLE        Days in Travel Status                                                                            215          215
                                                     Total Reimbursements                                                                         $19,200      $19,200
ELECT                Chattanooga   JOHNSON CITY      Days in Travel Status                                                                  209                    209
                                                     Total Reimbursements                                                               $13,689                $13,689
SPV, TRNSLINE CON    Chattanooga   CHATTANOOGA       Days in Travel Status                           205                                                           205
                                                     Total Reimbursements                        $14,451                                                       $14,451
ELECT ENG,AREA ENG   Gray, TN      BENTON            Days in Travel Status       192                                                                               192
                                                     Total Reimbursements     $9,449                                                                            $9,449
BUS SPT REP-MULTI    Chattanooga   Other AL in       Days in Travel Status                                     179                                                 179
                                                     Total Reimbursements                                   $8,399                                              $8,399
HV EQPT OP--P        Chattanooga   Other GA in       Days in Travel Status                           174                                                           174
                                                     Total Reimbursements                        $11,941                                                       $11,941
BUS SPT REP-MULTI    Chattanooga   GILBERTSVLLE      Days in Travel Status                           166                                                           166




                                                                                                                                                                          APPENDIX B
                                                                                                                                                                           Page 1 of 2
                                                                                                                  Fiscal Year
                     Home Duty
Jobtitle             Station       CITY VISITED   Data                    1999      2000      2001      2002      2003     2004      2005      2006      Grand Total
                                                  Total Reimbursements                         $8,703                                                        $8,703
BUS SPT REP-MULTI    Chattanooga   Other GA in    Days in Travel Status                                                        166                              166
                                                  Total Reimbursements                                                      $8,792                           $8,792
Right of Way Spec    Chattanooga   Other GA in    Days in Travel Status                                                        159                              159
                                                  Total Reimbursements                                                      $9,166                           $9,166
TRANSMSN CONST FMN   Chattanooga   Other AL in    Days in Travel Status                           147                                                           147
                                                  Total Reimbursements                         $9,815                                                        $9,815
SUPV, SUBST CONST    Chattanooga   CHATTANOOGA    Days in Travel Status                                                                            146          146
                                                  Total Reimbursements                                                                          $6,102       $6,102
Mgr, Contract Cnst   Chattanooga   CHATTANOOGA    Days in Travel Status                                                                            142          142
                                                  Total Reimbursements                                                                         $14,309      $14,309
                                                                              558       862      1064       512      177       493       367       833         4866
                                                                          $30,202   $47,221   $68,864   $22,937   $4,941   $21,824   $17,432   $46,428     $259,848




                                                                                                                                                                       APPENDIX B
                                                                                                                                                                        Page 2 of 2
                                                   Inspection Services’ Judgmental Sample

                                                                                                               Fiscal Year

                     Home Duty                                                                                                                            Grand
     Jobtitle         Station           CITY             Data             1999      2000     2001     2002       2003        2004      2005      2006     Total
NDE Specialist       Soddy Daisy   HUNTSVILLE    Days in Travel Status                273      210      239        254         278       198       229      1,681
                                                 Total Reimbursements               $6,510   $3,894   $4,148    $5,399       $5,498    $7,821   $11,936   $45,207
NDE Specialist       Soddy Daisy   ATHENS        Days in Travel Status                         157                 266         282       321                1,026
                                                 Total Reimbursements                        $4,429            $26,123   $29,706      $27,547             $87,805
                                   Other AL in   Days in Travel Status      215       218                                                                    433
                                                 Total Reimbursements    $13,298   $14,462                                                                $27,760
Technician           Soddy Daisy   ATHENS        Days in Travel Status                                             245         341       328       143      1,057
                                                 Total Reimbursements                                          $18,482   $28,303      $25,972    $7,899   $80,655
NDE Specialist       Soddy Daisy   HUNTSVILLE    Days in Travel Status                                                         339       332       335      1,006
                                                 Total Reimbursements                                                    $33,670      $32,959   $29,438   $96,066
Technician, QC       Soddy Daisy   MUSCLE SHLS   Days in Travel Status                         170                 293         275                           738
                                                 Total Reimbursements                        $3,948            $22,167   $23,169                          $49,285
                                   Other AL in   Days in Travel Status      165                                                                              165
                                                 Total Reimbursements     $5,706                                                                           $5,706
Quality Specialist   Soddy Daisy   ATHENS        Days in Travel Status                                                         217       358       291       866
                                                 Total Reimbursements                                                    $16,578      $30,578   $25,567   $72,723
NDE Specialist       Soddy Daisy   DECATUR       Days in Travel Status                                                         319       255       247       821
                                                 Total Reimbursements                                                    $32,894      $24,353   $20,319   $77,566




                                                                                                                                                                    APPENDIX C
                                                                                                                                                                     Page 1 of 2
                                           Inspection Services’ Justification

“The Inspection Services Organization is a centrally located group of approximately 50 quality control and nondestructive
testing personnel. The group operates with a "zero based" budget and obtains full cost recovery form internal customers
(Power Plants). Although ISO is a TVAN organization, we provide inspection services to all TVA's Fossil, Hydro, and
Nuclear plants including the Power Service Shops, which requires constant travel to these locations. ISO employees are
assigned to projects based on qualifications and certifications that match the existing needs across the valley. The types
and lengths of projects vary considerably.
The individuals in the attached as an example have been supporting BFN Unit 1 restart including inspections on the other
two BFN operating units and supported work at the Muscle Shoals Power Services Shops. These individuals as well as
the other ISO staff are often assigned specific tasks during outage season and move around the valley accordingly to
conduct the inspections or tests. Supporting BFN Unit 1 restart, plant outage schedules and other emergent work with
personnel with the appropriate qualifications and certifications is certainly a logistical challenge. While individual
preferences, qualifications, skills, etc. are considered before assignment, all ISO personnel are subject to assignment
anywhere in the valley based on job description. Individuals are chosen for a particular job that will serve in the best
interest of TVA. Now with BFN Unit 1 restart drawing to a close, these individuals will be assigned to other projects. We
are already involved in conducting assessments and inspections for WBN Unit 2 construction estimates and look forward
to playing an equal roll in completing the unit.”




                                                                                                                             APPENDIX C
                                                                                                                              Page 2 of 2
                                             Watts Bar Nuclear Site (WBN) Outlier Sample

                                                                                                                      Fiscal Year

                       Home Duty                                                                                                                           Grand
       Jobtitle         Station       CITY        Level 5           Data            1999   2000   2001     2002     2003     2004     2005       2006      Total
SR INST MECH INSTR   Spring City   SODDY-DAISY   WBN SITE   Days in Travel Status                   150      190      202      204      161                   907
                                                            Total Reimbursements                  $3,729   $4,766   $5,109   $5,071   $4,331               $23,007
MGR,DEV/RTATNAL SR   Soddy Daisy   SPRING CITY   WBN SITE   Days in Travel Status                                              193      195         167       555
                                                            Total Reimbursements                                             $5,713   $5,979   $5,558.18   $17,250
MAINT MECH INSTR/S   Spring City   SODDY-DAISY   WBN SITE   Days in Travel Status                                     182      173                            355
                                                            Total Reimbursements                                    $5,063   $4,813                         $9,876
PM, Nuc Assurance    Spring City   ATLANTA       WBN SITE   Days in Travel Status                                              201      147                   348
                                                            Total Reimbursements                                             $4,583   $4,568                $9,151




                                                                                                                                                                   APPENDIX D
                                                                                                                                                                    Page 1 of 1
